OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/EGYPT’S
COMMUNICATION FOR
HEALTHY LIVING PROGRAM

AUDIT REPORT NO. 6-263-11-007-P
JUNE 9, 2011




CAIRO, EGYPT
Office of Inspector General


June 9, 2011

MEMORANDUM

TO:                  USAID/Egypt Mission Director, James A. Bever

FROM:                Regional Inspector General/Cairo, Jacqueline Bell /s/

SUBJECT:             Audit of USAID/Egypt’s Communication for Healthy Living Program
                     (Report No. 6-263-11-007-P)

This memorandum transmits our final report on the subject audit. In finalizing the report, we
carefully considered your comments on the draft report and have included the comments in their
entirety in Appendix II.

The report includes seven recommendations to USAID/Egypt. On the basis of actions taken by
the mission and supporting documentation provided, we determined that management decisions
have been reached and final action taken on Recommendations 1, 3, and 4. Please provide the
Audit Performance and Compliance Division of USAID’s Office of the Chief Financial Officer
with evidence of final action to close these recommendations.

We determined that management decisions have not been reached on Recommendations 2, 5,
6, and 7. Management decisions can be reached when USAID/Egypt provides us with a firm
plan of action and target date for implementing these four recommendations. Please advise our
office within 30 days of the actions planned or taken to implement these recommendations.

Thank you for the cooperation and courtesy extended to the audit team during this audit.




U.S. Agency for International Development
USAID Office Building
1a Nady El-Etisalat Street,
off El-Laselki Street
New Maadi
Cairo, Egypt
www.usaid.gov/oig
CONTENTS
Summary of Results ....................................................................................................... 1

Audit Findings................................................................................................................. 6

     USAID/Egypt Did Not Ensure Compliance With
     Antiterrorism Financing Requirements........................................................................ 6

     USAID/Egypt Did Not Verify the Accuracy of the
     Reported Performance Data ....................................................................................... 7

     USAID/Egypt Did Not Update
     Targets With Changes in Activities ............................................................................. 9

Evaluation of Management Comments....................................................................... 11

Appendix I – Scope and Methodology ........................................................................ 13

Appendix II – Management Comments ....................................................................... 15

Appendix III – Status of Program Activities for FY 2009 and FY 2010 ..................... 24

Appendix IV – FY 2009 and FY 2010 Indicators Reported by the Implementer....... 27


Abbreviations

The following abbreviations appear in this report:

ADS                                             Automated Directives System
AOTR                                            agreement officer’s technical representative
Ask Consult                                     Ask Consult for Health, LLC
FY                                              fiscal year
Johns Hopkins, the implementer                  Johns Hopkins Bloomberg School of Public Health
NGO                                             nongovernmental organization
RIG/Cairo                                       Regional Inspector General/Cairo
SUMMARY OF RESULTS
USAID/Egypt and Egyptian health officials have worked as partners for more than 25 years to
improve the health of the Egyptian population. Programs have included expanding access to
health-care services, strengthening health service delivery systems, and launching health
communication programs. Despite impressive gains, certain challenges remained in 2002 in
USAID/Egypt’s intervention in the health and population sector. Underserved populations such
as youth and young married couples needed to be reached with information and services. In
response, USAID/Egypt’s Office of Health and Population developed the Communication for
Healthy Living program to effect behavior change that addresses the Government of Egypt’s
priority health issues: family planning, reproductive health, maternal or child health, infectious
diseases and infection control, healthy lifestyle issues, and health sector reform. Moreover, the
program was designed to be a catalyst in developing partnerships with the private sector and
nongovernmental organizations (NGOs) to sustain the health communication activities designed
and implemented.

To implement USAID/Egypt’s Office of Health and Population’s Communication for Healthy
Living program, USAID/Egypt awarded a 7.5-year, $25 million associate agreement to the
Center for Communication Programs, Johns Hopkins Bloomberg School of Public Health (Johns
Hopkins, the implementer), effective July 15, 2003. USAID/Egypt expected the program to end
on February 28, 2011, but according to the agreement officer, closeout activities may take up to
a year or more to complete. 1 As of September 30, 2010, USAID/Egypt had obligated $25
million and disbursed $24 million for the program.

The implementer was to achieve the program goals of (1) providing improved strategic
information and coordination for effective health communication programs; (2) increasing
demand for health services and the adoption of healthy behaviors; and (3) developing
institutional, technical, and financial sustainability to implement health communication programs
in the public, NGO, and commercial sectors. Johns Hopkins hired five major subimplementers to
help achieve these goals.

At USAID/Egypt’s request, the Regional Inspector General/Cairo (RIG/Cairo) conducted this
audit as part of its fiscal year (FY) 2011 annual audit plan to determine whether USAID/Egypt’s
Communication for Healthy Living program achieved its main goal to increase the adoption of
healthy behaviors through crosscutting communication activities.

During FYs 2009 and 2010, USAID/Egypt’s Communication for Healthy Living program
achieved some of its goals. Under the assistance objective Healthier, Planned Families, the
audit verified that the implementer completed 34 of 36 (94 percent) planned activities (Appendix
III). Moreover, USAID/Egypt reports on four indicators for this program—(1) number of people
that have seen or heard a specific U.S. Government-supported family planning/reproductive
health message, (2) number of U.S. Government-assisted service delivery points providing
family planning counseling or services, (3) number of children reached by U.S. Government-

1
  Closeout activities include closing out the program financially, finalizing site visit reports, verifying
compliance with any remaining conditions or covenants, ensuring that project files are complete, and
preparing a closeout report. As of May 19, 2011, the mission reported that some closeout activities had
been completed, but the implementer still had not submitted its final performance report and financial
report, which are required before closeout procedures can be completed.  


                                                                                                         1
supported nutrition programs, and (4) number of people trained in maternal/newborn health
through U.S. Government-supported programs. As illustrated in Appendix IV, during FY 2009,
the program met its targets for two of four health indicators that measure the performance of
activities promoting family planning and healthy lifestyles. In FY 2010, the program met its
targets for three of the four indicators.

Although the implementer achieved goals for some program objectives, the implementer did not
meet its target for one indicator—number of children reached by U.S. Government-supported
nutrition programs in FY 2009—and one other indicator—number of people that have seen or
heard a specific U.S. Government-supported family planning/reproductive health message—in
FY 2010. The implementer did not achieve the target for children reached through nutrition
programs because the implementer shifted the program focus from weighing children for
malnutrition to counseling women on breastfeeding and reproductive health and nutrition.
According to the mission, the implementer made this change without consulting the mission. As
for the second target, the implementer did not reach the expected number of people with family
planning or reproductive health messages because of increased penetration of satellite
broadcast and fragmentation of television viewership. In addition, the mission could not
determine the achievement of results for the indicator number of U.S. Government-assisted
service delivery points providing family planning counseling or services in FY 2009 because the
mission had decided not to report on this target because of the indicator’s imprecise definition.

The 36 planned activities reviewed focused on three sectors: public sector, NGO/civil society
sector, and private sector. Notable achievements in these sectors are discussed below.

Public Sector. For the Ministry of Health and the Ministry of Information’s State Information
Service, the program provided strategic health information and coordination assistance to
implement joint planning decisions between the ministries and among health programs. The
program also assisted the State Information Service in drawing up a sustainability plan that
included components to plan and budget for health communication activities. In addition, the
program provided health communication materials or “messages” to the Ministry of Health. An
official at the Ministry of Health stated that the program responded in a timely and effective
manner during the avian and H1N1 influenza pandemics and other emergencies. For example,
the program responded to the avian influenza pandemic by developing freestanding displays
(shown on the following page) and television messages that aired almost immediately after the
first case of avian influenza was detected in Egypt. The implementer also provided about
30,000 kits (shown on the following page) to the Ministry of Education for distribution to public
and private schools during the H1N1 campaign.




                                                                                               2
     The program distributed this and other displays, developed with USAID/Egypt funding,
     in public areas during the 2009 H1N1 crisis. (Photo by RIG/Cairo, November 2010)




   The program provided approximately 30,000 kits to the Ministry of Education to distribute to
   schools. The kits include posters like the one shown. (Photo by RIG/Cairo, November 2010)

As another example of success, the program reported contributing to increasing the percentage
of women who used a family planning method for the first time after the birth of the first child, a
national health indicator for Egypt. According to the Egypt Demographic and Health Survey, the
percentage increased from 50 percent in 2005 to 57.5 percent in 2008.

NGO/Civil Society Sector. The program achieved some notable successes in conducting
family planning and reproductive health activities and maternal and child health activities
through its community development associations, which are subimplementers on this program,
during FYs 2009 and 2010. Moreover, in late FY 2009, the program expanded its nutrition
activities from three to five focal governorates in Upper Egypt (Menia, Fayoum, and Qena) and
Lower Egypt (Dakahliya and Monofiya).




                                                                                                  3
In FY 2009, the program reported 2 that it had achieved a decline since implementation began in
infant malnutrition rates, from 28.5 percent to 3.7 percent for its focal villages. In addition, the
program reported in FY 2009 that more than 97 percent of women beneficiaries in its focal
villages were using family planning.

The audit verified that the program had trained 346 community health workers in FY 2009 to
conduct home visits to newlyweds to provide family health counseling and client education (with
education materials pictured below). In addition, the audit verified that the community health
workers conducted prenatal classes for women who were pregnant for the first time or who had
a high-risk pregnancy. The program also trained women leaders on marriage, postpartum care,
family health and welfare, and specialized topics such as female genital mutilation and avian
influenza.




                  Health workers used this flipchart, developed by the program, in
                  counseling clients. (Photo by RIG/Cairo, November 2010)

Private Sector. The program coordinated with the private sector to convey behavior-change
messages. The program developed and distributed health education materials for providers
and clients based on national health priorities. Specifically, the program distributed materials to
pharmacies and trained pharmacists and physicians on family planning information and
products. According to the implementer’s annual progress report, the program helped increase
the sales of progestin-only contraceptive pills through its activities to increase the adoption of
healthy behaviors and demand for health services.

The implementer established a health marketing company called Ask Consult for Health, LLC.
Johns Hopkins designed the company to develop a campaign to promote healthy behaviors in
Egypt through the private sector. While the implementer believes the limited liability company to
be sustainable, USAID/Egypt has reservations about the sustainability of the company at this
stage and about plans to fund it in future USAID/Egypt health programs because it has not
attracted enough funding outside the program.



2
    The reported data were not audited.


                                                                                                  4
Although the program achieved some of its goals under the indicators and completed most of its
activities, the audit noted the following weaknesses:

   USAID/Egypt did not ensure compliance with antiterrorism financing requirements, including
    certifications and the review of subagreements for terrorist financing clauses (page 6).

   USAID/Egypt did not verify the accuracy of reported performance data (page 7).

   USAID/Egypt did not update targets with changes in activities (page 9).

This report makes seven recommendations to improve the mission’s implementation and
oversight of the program. The report recommends that USAID/Egypt:

1. Obtain the antiterrorism certification required and include the information in the mission’s
   official award files (page 7).

2. Require the primary implementer to verify that secondary implementers and individuals it
   provided material support or resources to were not associated with terrorism (page 7).

3. Provide written guidance to the implementer about USAID’s antiterrorism measures, to
   include requirements for certifications, and mandatory clauses for the prohibition of terrorist
   financing (page 7).

4. Develop a schedule to verify periodically that the implementer has taken actions to ensure
   that antiterrorism measures are followed in a timely manner as a part of the mission’s
   management oversight (page 7).

5. Develop and implement a checklist for mission staff to use to verify the accuracy of
   information provided by the implementer (page 9).

6. Develop and implement a written plan for training assistance recipients about data
   verification and performance monitoring plans (page 9).

7. Document a plan to conduct the required reviews and updates of targets for program
   indicators on a recurring basis (page 10).

Detailed findings begin on the following page. Our evaluation of management comments is on
page 11. The audit scope and methodology are described in Appendix I (page 13), and
management comments are in Appendix II (page 15).




                                                                                                5
AUDIT FINDINGS
USAID/Egypt Did Not Ensure
Compliance With Antiterrorism
Financing Requirements
Much federal guidance exists regarding the implementation of Executive Order 13224 of
September 23, 2001—Blocking Property and Prohibiting Transactions With Persons Who
Commit, Threaten To Commit, or Support Terrorism, which prohibits support to individuals and
organizations associated with terrorism. To implement Executive Order 13224, USAID uses
(1) certifications, (2) vetting, 3 and (3) special contract provisions, such as a mandatory clause.
USAID’s Acquisition and Assistance Policy Directive 04-14, “Certification Regarding Terrorist
Financing Implementing E.O. 13224” (Revision 2), requires agreement officers to obtain
certifications from recipients that they did not and will not knowingly provide material support or
resources, such as currency, lodging, or training, to any individual or entity that has engaged or
engages in terrorist activity before an award is made. As stated in the USAID policy directive,
the implementer should verify that an individual or entity to which it provides material support or
resources does not appear on lists maintained by the U.S. Government or the United Nations.
Moreover, in accordance with the Communication for Healthy Living associate agreement, the
implementer was required to include mandatory clauses regarding terrorist financing in all
contracts and subawards issued under the agreement. In addition, at the mission level, the
agreement officer’s technical representative (AOTR) is responsible for verifying that the
recipient’s activities conform to the terms and conditions of the award as outlined in the
designation letter for agreement officer’s technical representatives, a management control.

Although the Communication for Healthy Living agreement included information about the
Executive order on antiterrorism financing requirements, USAID/Egypt’s procurement office and
Office of Health and Population did not ensure that USAID’s antiterrorism measures were
conducted. USAID/Egypt’s agreement officer did not obtain the required certification on
antiterrorist financing from the implementer when the mission made the award. According to the
USAID/Egypt agreement officer, the mission usually obtains a certification from the implementer
when an award is made or when USAID/Egypt increases the total estimated cost for an award.
However, USAID/Egypt’s official award file did not contain the certification, and the audit found
that mission officials had assigned six agreement officers to this agreement from July 2003 to
February 2011. Moreover, the implementer did not ascertain whether individuals and entities to
which it provided material support appeared on the lists maintained by the U.S. Government
and the United Nations and did not include the mandatory clauses on the prohibition of terrorist
financing in two of five subcontracts valued at $2.5 million.

This noncompliance with certification and mandatory clause requirements occurred primarily
because of poor oversight and weak management controls of the implementer’s and mission’s
supervisory review. According to USAID/Egypt officials, the agreement office did not follow the

3
  USAID is not required to implement a partner vetting system or vet ultimate beneficiaries of USAID
assistance; however, USAID missions are responsible to obtain certifications on antiterrorist financing
from the implementer before making an award, and it is the legal responsibility of the implementer to
ensure that mandatory clauses are included in the subawards and that individuals it provides support to
do not commit or support terrorism.


                                                                                                     6
mission’s usual practice of obtaining certification when the award was initially made in July
2003. In addition, the AOTR did not periodically verify that the implementer followed standard
provisions on terrorist financing because the AOTR did not know this was the AOTR’s
responsibility. Although USAID/Egypt made specific reference to the Executive order regarding
antiterrorism in the associate agreement, Johns Hopkins’ Chief of Party stated that the
implementer’s staff members were unaware of USAID’s antiterrorism measures, such as
verifying individuals or entities. Furthermore, the implementer cited a management oversight as
the cause for not including the special provisions on terrorist financing in two of five subawards
issued under this agreement.

If USAID/Egypt does not obtain certifications regarding terrorist financing and periodically verify
that procedures are followed, the mission cannot be assured that its program is not providing
support to entities or individuals associated with terrorism. Given the sensitivities, complexities,
and visibility of antiterrorism issues, USAID/Egypt could benefit from increased management
oversight to ensure compliance with antiterrorism requirements.                 Without increased
management attention and oversight regarding antiterrorism measures, USAID implementers
are susceptible to questioned program costs, and USAID may inadvertently provide resources
to individuals or entities associated with terrorist activities. Consequently, the audit makes the
following recommendations.

   Recommendation 1. We recommend that USAID/Egypt obtain the antiterrorism
   certification required and include the information in the mission’s official award files.

   Recommendation 2.          We recommend that USAID/Egypt require the primary
   implementer to verify that secondary implementers and individuals it provided material
   support to were not associated with terrorism.

   Recommendation 3. We recommend that USAID/Egypt provide written guidance to the
   implementer about USAID’s antiterrorism measures, to include requirements for
   certifications and mandatory clauses for the prohibition of terrorist financing.

   Recommendation 4. We recommend that USAID/Egypt develop a schedule to verify
   periodically that the implementer has taken actions to ensure that antiterrorism
   measures are followed in a timely manner as a part of the mission’s management
   oversight.

USAID/Egypt Did Not Verify
the Accuracy of the Reported
Performance Data

Automated Directives System (ADS) 203.3.5.1, “Data Quality Standards,” states that USAID
missions should ensure that performance data meet five data quality standards—validity,
integrity, precision, reliability, and timeliness. USAID missions should ensure that data quality
standards are met so that performance data are useful in managing for results and credible for
reporting.    Moreover, USAID’s Performance Management Toolkit provides guidance to
operating units to sample and review the implementer’s data periodically to ensure
completeness and accuracy.

Johns Hopkins did not report accurate data, and USAID/Egypt cannot rely on information in the
implementer’s progress reports. Johns Hopkins reported on four performance indicators during


                                                                                                  7
FYs 2009 and 2010. In FY 2009, the implementer significantly 4 underreported results for two of
its indicators using estimated and inaccurate data (Appendix IV). In FY 2010, results were
significantly underreported for two indicators regarding family planning and reproductive health,
and overreported on one indicator for number of people trained in maternal and newborn health.

The audit found data quality issues for the following four indicators:

   Number of people that have seen or heard a specific U.S. Government-supported family
    planning/reproductive health message. In FY 2009, the implementer reported that 28.6
    million people had seen a television advertisement promoting an oral contraceptive.
    However using a media monitoring service, Johns Hopkins calculated the number of people
    reached by multiplying the percentage of adults who viewed the progestin-only pill ad by an
    adult population of 52 million. Although the media monitoring service maintained a
    television ratings database of the number of Egyptian television viewers reached, the
    database used to generate the percentage was unreliable: audit tests found that the
    database generated a different result, recurring during multiple tests.

   Number of U.S. Government-assisted service delivery points providing family planning
    counseling or services. During FY 2009 and again during FY 2010, Johns Hopkins reported
    assisting 15,382 pharmacies that provided family planning counseling or services.
    However, the implementer did not disclose in the progress reports that this was an
    estimated number of pharmacies, calculated using 30,000 pharmacies as a multiplier. Using
    the estimate led to underreporting its results by as much as 29 percent in FY 2009 and 34
    percent in FY 2010. Moreover, Johns Hopkins could not support the use of the number
    30,000 and provided third-party source documents to the auditors that showed more than
    30,000 pharmacies actually existed in Egypt. Appendix IV shows the audit’s verification and
    the anomalies associated with the reported data.

   Number of children reached by U.S. Government-supported nutrition programs.                   Data
    inconsistencies resulted in reports of inaccurate data by the implementer.

    –   In FY 2010, Johns Hopkins reported providing service to 21,021 children. However, the
        audit found that the implementer based its reported data on an estimated figure that was
        not disclosed to USAID/Egypt. One of the subimplementers, Save the Children,
        reported estimated data to Johns Hopkins. The audit verified that the estimated figure
        was overreported by 11 percent for FY 2010.

    –   In FY 2009, the implementer reported inaccurate data regarding services provided to
        children aged 6–24 months. Although Johns Hopkins reported that 10,913 children aged
        6–24 months had been weighed in FY 2009 to determine whether nutrition services were
        warranted, the audit verified that the number was higher than 10,913 and that it had
        included children less than 6 months old.

   Number of people trained in maternal/newborn health through U.S. Government-supported
    programs. Although two subimplementers, Ask Consult for Health, LLC (Ask Consult), and
    Save the Children, provided Johns Hopkins with information on maternal and newborn
    health training, the implementer either did not include the data in its reports or did not report
    accurate data to USAID/Egypt. Ask Consult trained 117 physicians and pharmacists in FY
4
 The audit considered an indicator to be significantly over- or underreported if the percentage variance
exceeded 5 percent.


                                                                                                      8
   2009 and 116 physicians and pharmacists in FY 2010; however, Johns Hopkins did not
   include these figures in its reports to USAID/Egypt. Furthermore, Save the Children did not
   accurately track its number of trainees. It double-counted the number of people who
   attended multiple training sessions, included people who were trained in a prior fiscal year,
   and included people who attended training sponsored by the Ministry of Health that was not
   supported by the U.S. Government. Consequently, Johns Hopkins underreported this
   indicator by 24 percent in FY 2009 and by 7 percent in FY 2010.

USAID/Egypt and Johns Hopkins reported inaccurate program data because neither entity
verified or validated the reported results using source documents. Although both the mission
and the implementer reviewed progress reports and conducted intermittent site visits to observe
program progress, neither verified data through periodic sampling and testing. Inaccurate
program data were reported in part because the program AOTR stated that the program
portfolio was fully loaded and accordingly relied on other mission support staff for feedback on
program results. Moreover, Johns Hopkins stated that it deliberately reported conservative data
in its quarterly and annual reports to USAID/Egypt. The audit also found that USAID/Egypt’s
Office of Health and Population did not periodically sample or test its reported data after a data
quality assessment in early FY 2008. In addition, USAID/Egypt’s development program
specialist stated that although the mission has monitoring and evaluation systems and policies
in place, the Office of Health and Population staff lacked understanding of and did not
implement the monitoring and evaluation systems and policies.

USAID/Egypt’s Office of Health and Population should ensure that annual performance data
reported to external stakeholders meet data quality standards. Data on output indicators, such
as the number of people trained, are critical to achieving results, and problems with the data
quality provide an early warning that results may not be achieved as planned. Stakeholders
including Congress may rely on the narratives and results reported in the mission’s annual
performance plan and report. Therefore, the Office of Health and Population should exercise
prudent management oversight in ensuring that the data reported for this program are accurate.
Consequently, the audit makes the following recommendations.

   Recommendation 5. We recommend that USAID/Egypt develop and implement a
   written data verification checklist for mission staff to use to verify the accuracy of
   information provided by the implementer.

   Recommendation 6. We recommend that USAID/Egypt develop and implement a
   written plan for training assistance recipients about data verification and performance
   monitoring plans.

USAID/Egypt Did Not Update
Targets With Changes in Activities
ADS 203.3.4.5, “Setting Performance Baselines and Targets,” states that yearly targets are
generally required for the standard indicators selected for the annual joint operational plan and
the joint performance report. These targets should be ambitious but achievable given the
resources provided to the program. In addition, Performance Monitoring & Evaluation TIPS
No. 8, “Baselines and Targets,” a supplemental reference to ADS 203, states that if a project
does not meet targets, it is important for managers to reexamine the focus or priorities of the
project and make related adjustments in indicators or targets. Senior managers, staff, and




                                                                                                9
implementers should review performance information and targets as part of ongoing project
management responsibilities.

During FYs 2009 and 2010, the Communication for Healthy Living program changed some of its
activities; however, USAID/Egypt did not adjust the targets in response to the changes in
activities. For example, in FY 2009, Johns Hopkins shifted its focus from weighing children for
malnutrition to counseling mothers on breastfeeding and reproductive health and nutrition. As a
result, Johns Hopkins did not achieve its target in FY 2009 for the indicator number of children
reached by U.S. Government-supported nutrition programs (Appendix IV). In late FY 2009,
Johns Hopkins scaled up its activities to include two additional focal governorates in Lower
Egypt, in which it weighed children for malnutrition. USAID/Egypt did not adjust the target in
response to the additional activity, resulting in the implementer exceeding targets by 119
percent in FY 2010 (Appendix IV).

Moreover, in FY 2009, Johns Hopkins began training pharmacists and physicians as a part of its
private sector activities. USAID/Egypt’s Office of Health and Population did not adjust the target
to reflect the impact of this new activity, and as a result Johns Hopkins exceeded its target for
the number of people trained in maternal/newborn health through U.S. Government-supported
programs by 32 percent in FY 2009 and trained more than double the target number in FY 2010
(Appendix IV).

Finally, Johns Hopkins reported to USAID/Egypt in its quarterly and annual reports challenges in
achieving its target for the number of people that have seen or heard a specific U.S.
Government-supported family planning/reproductive health message. Johns Hopkins reported
a steady decline in state-owned television viewing and an increase in satellite television viewing.
Despite the challenges, neither USAID/Egypt nor Johns Hopkins revised the target because of
the decline in viewership. As a result, Johns Hopkins achieved only 71 percent of its target in
FY 2010.

The implementer stated that it did not know that it could adjust the targets, and never discussed
the issue with the mission’s health staff. Conversely, USAID/Egypt’s Office of Health and
Population’s monitoring and evaluation specialist stated that Johns Hopkins was expected to
update the targets in its progress reports to USAID/Egypt’s Office of Health and Population.
Although Johns Hopkins reported to the mission’s health officials some obstacles and
constraints in meeting one of its targets, neither the health officials nor the implementer took any
action to adjust the targets accordingly. Moreover, despite a USAID/Egypt mission order that
requires staff to review and modify performance-monitoring plans as necessary during
implementation, the Office of Health and Population’s staff did not update its targets.

USAID/Egypt’s Office of Health and Population is responsible for reviewing performance
information and targets as part of its ongoing project management responsibilities. As a
management control, the office should address the obstacles and constraints reported by the
implementer. With the adjustment of targets, both USAID/Egypt and Johns Hopkins might have
achieved greater successes in the program. The audit makes the following recommendation.

   Recommendation 7. We recommend that USAID/Egypt document a plan to conduct
   the required reviews and updates of targets for program indicators on a recurring basis.




                                                                                                 10
EVALUATION OF MANAGEMENT
COMMENTS
USAID/Egypt’s comments and planned actions are partially responsive to the report
recommendations. Although USAID/Egypt officials agreed with one of seven recommendations,
the mission took action to address Recommendations 1, 3, and 4. Based on USAID/Egypt’s
supporting documentation and planned actions, RIG/Cairo considers that management
decisions have been made and final action has been taken on Recommendations 1, 3, and 4.
Management decisions have not been reached on Recommendations 2, 5, 6, and 7.

After receiving a discussion draft provided to USAID/Egypt on January 23, 2011, mission
officials provided additional information in written responses to RIG/Cairo on February 25,
February 26, and March 3, 2011, before the draft report was provided to officials for
management comments.

Recommendation 1. USAID/Egypt agreed with the recommendation. The mission obtained the
required antiterrorism certification from Johns Hopkins on April 15, 2011, and included the
certification in the mission’s official program files. Accordingly, RIG/Cairo considers that final
action has been taken on the recommendation.

Recommendation 2. Mission officials did not agree with the recommendation to require the
implementer to verify that secondary implementers and individuals to which it provided material
support were not associated with terrorism. RIG/Cairo maintains that, although the implementer
was not required to conduct some antiterrorism measures such as vetting, the implementer
should have conducted mandatory antiterrorism requirements applicable to the USAID
agreement. Moreover, USAID/Egypt’s implementer and mission health officials share a
responsibility to ensure that any required antiterrorism measures are conducted. The mission
should institute as a primary management control to routinely verify that the implementer has
taken the necessary actions to provide reasonable assurance that it did not inadvertently
provide material support to subimplementers associated with terrorism.           Consequently,
RIG/Cairo does not consider that a management decision has been reached on this
recommendation.

Recommendation 3. USAID/Egypt did not agree with the recommendation to provide written
guidance to the implementer about USAID’s antiterrorism measures, including specific
information on requirements regarding antiterrorism certifications and mandatory clauses.
However, mission officials took corrective actions by obtaining a signed antiterrorism
certification from Johns Hopkins on April 15, 2011, and placing it in the mission’s official
program files. On the basis of these actions, RIG/Cairo considers that final action has been
taken on this recommendation.

Recommendation 4. Although USAID/Egypt did not agree to develop a schedule to verify
periodically that the implementer had taken action to ensure that antiterrorism measures were
followed in a timely manner, mission officials took alternate corrective action and agreed that the
designation letter for the AOTR requires the AOTR to be familiar with the grant and its terms.
USAID/Egypt has instructed the mission’s procurement office to review information included in
the Agency’s antiterrorism policy directive with AOTRs at least annually to remind them of



                                                                                                11
requirements for USAID implementers. Moreover, USAID/Egypt plans to remind AOTRs to
review with implementers on their responsibilities periodically as part of the mission’s oversight
function.    Therefore, RIG/Cairo considers that final action has been taken on this
recommendation.

Recommendation 5. USAID/Egypt did not agree to develop and implement a data verification
checklist. RIG/Cairo maintains that, although the mission completed a data quality assessment
for FY 2007, officials did not adequately validate the propriety and integrity of the implementer’s
data as a prudent management control. At a minimum, mission officials should assess data
reported to USAID and document the findings of their data verification to ensure that the data
USAID publishes is accurate during the years when the mission has not conducted a formal
data quality assessment. Accordingly, RIG/Cairo considers that a management decision has not
been reached.

Recommendation 6. USAID/Egypt did not agree to develop a plan for training assistance
recipients about data verification and performance monitoring plans. RIG/Cairo still believes
such a plan is necessary because, although mission officials assumed that the implementer’s
staff was knowledgeable about conducting monitoring and evaluations for USAID work without
additional training and that the implementer would review information on an Agency Web site,
the implementer did not periodically verify the integrity or propriety of reported results and relied
on a subimplementer’s reports of data. Consequently, the implementer provided erroneous
data to USAID/Egypt. In addition, the implementer did not develop a well-defined performance-
monitoring plan during FY 2009 or FY 2010 with elements such as the data source, frequency of
collection, methodology or approach of collection, data limitations, and rationale for critical
assumptions for the indicators. Moreover, although the program had been ongoing for over 7
years, the implementer’s staff reported that USAID’s performance and monitoring guidance
would have been beneficial. Accordingly, RIG/Cairo considers that a management decision has
not been reached.

Recommendation 7. USAID/Egypt did not agree to document a plan to conduct required
reviews and update targets for program indicators on a recurring basis. RIG/Cairo urges the
mission to reconsider. Routinely, when the mission and the implementer changed activities,
they did not update or revise the targets to document the changes in the performance
management plans, in accordance with USAID/Egypt’s Program Office guidance.
USAID/Egypt’s Office of Health and Population should document a plan to revise and document
indicator targets to provide the most accurate information by which to assess goal achievement.
Therefore, RIG/Cairo considers that a management decision has not been made on this
recommendation.




                                                                                                  12
                                                                                        Appendix I



SCOPE AND METHODOLOGY
Scope
RIG/Cairo conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
in accordance with our audit objective. We believe that the evidence obtained provides that
reasonable basis. We designed this audit to determine whether USAID/Egypt’s Communication
for Healthy Living program is achieving its main goal to increase the adoption of healthy
behaviors through crosscutting communication activities during FYs 2009 and 2010. RIG/Cairo
included the audit of USAID/Egypt’s Communication for Healthy Living program in its FY 2011
Office of Inspector General audit plan.

USAID/Egypt awarded a 7.5-year, $25 million associate agreement to the Center for
Communication Programs, Johns Hopkins Bloomberg School of Public Health (Johns Hopkins),
effective July 15, 2003. USAID/Egypt expected the program to end on February 28, 2011. As
of September 30, 2010, USAID/Egypt had obligated $25 million and disbursed $24 million. Our
tests covered $10,406,144 or approximately 43.4 percent of the total expenditures.

We conducted this audit at USAID/Egypt, from November 1, 2010, to January 24, 2011, and at
the Cairo office of the implementer, Johns Hopkins Bloomberg School of Public Health, Center
for Communication Programs, and its subimplementers—Save the Children Federation Inc., and
Alliance for Arab Women in Menia. The audit team conducted field visits to Saft El Khammar
Village Community Development Association and village health unit in Menia. The audit team
also conducted an interview with the Minister of Health’s First Assistant Minister. However
before the team finalized the draft report, USAID staff evacuated post because of a revolution in
Egypt. Consequently, the audit team updated information through May 19, 2011 after staff
returned to Cairo.

We obtained an understanding of the management controls related to (1) management review
at the functional level, (2) documentation, (3) recording of transactions, and (4) significant staff
involvement with the recipient’s associate agreement during project implementation. We
reviewed documentation provided by the mission and the implementing partner, including FYs
2009 and 2010 work plans; the implementer’s quarterly reports; the associate agreement and
modifications; performance management plans; site visit reports; and supporting
documentation, such as training attendance sheets and records of children weighed.

Methodology
To answer our audit objective, we reviewed the terms of the agreement and applicable policies
and procedures and identified the program’s main goals. We also reviewed documentation
provided by USAID/Egypt, the implementer, and its subimplementers to determine whether the
implementer completed its planned activities and achieved its targets for its indicators. We
further interviewed key personnel at USAID/Egypt, Johns Hopkins, and Save the Children to
gain an understanding of the program’s design and how USAID/Egypt and its implementer
monitored the implementation of the program and measured results.




                                                                                                 13
                                                                                       Appendix I


We reviewed activities in the Communication for Healthy Living work plans, which described the
specific activities to be conducted for the benefit of the Government of Egypt in its efforts to
reduce population growth, reduce maternal and child mortality, and prevent infectious disease,
including H1N1 and avian influenza, as well as to promote healthy lifestyles and enable
sustainability of program activities. We determined whether the program achieved planned
results on four selected performance indicators in the implementer’s work plans by interviewing
the implementer, subrecipients, and mission technical staff and by reviewing documentation
provided, including quarterly progress reports.

To verify reported results, we selected and tested a judgmental sample of 36 of 91 activities that
we determined (through our review and knowledge of the program) were instrumental to
achieving program objectives. As directed by the Office of Inspector General/Washington
statistician, to test the results reported on the performance indicators for those activities, we
selected a random statistical sample of 104 of 30,099 children reached by a U.S. Government-
supported nutrition program, and 248 of 1,339 people trained in maternal and newborn health
through U.S. Government-supported programs during FYs 2009 and 2010. Using these
statistical samples and assuming a 5 percent error rate with a variation of plus or minus
4 percent provided a 90 percent confidence level. We verified the reported results for the
selected sample by matching them to the implementer’s relevant source documents, such as
attendance sheets and records of children weighed for FYs 2009 and 2010. The audit results
can be projected to the entire universe of children reached in the nutrition program and people
trained in maternal and newborn health.

We reviewed compliance by the mission and implementer with Executive Order 13224—
Blocking Property and Prohibiting Transactions With Persons Who Commit, Threaten to
Commit, or Support Terrorism, and with Acquisition and Assistance Policy Directive 04-14,
issued on September 24, 2004, for the implementation of Executive Order 13224. We also
reviewed the mission’s monitoring of the implementer’s compliance with Tiahrt requirements on
family planning.      Our Tiahrt and antiterrorism compliance testing included reviews of
subcontracts, certifications, and the USAID/Egypt’s Tiahrt site visit reports.

During site visits to Save the Children’s office in Menia and field visits to the Saft El Khammar
Community Development Association and village health unit, we interviewed health workers,
volunteers, and program beneficiaries to gain an understanding of whether the program was
meeting their needs. In addition, we interviewed the Minister of Health’s First Assistant to
determine the impact of the program.

For evaluating project results, the materiality threshold was established at 10 percent. In other
words, if 90 percent or more of the activities or indicators verified were determined to have
achieved the planned results, we determined that the Communication for Healthy Living
program achieved planned results as stated in the audit objective.




                                                                                               14
                                                                                    Appendix II



MANAGEMENT COMMENTS
April 26, 2011

MEMORANDUM

TO: Regional Inspector General/Cairo, Jacqueline Bell

FROM: USAID/Egypt Mission Director, James A. Bever /s/

SUBJECT: Audit of USAID/Egypt’s Communication for Healthy Living Program (Report No. 6-
263-11-00X-P)

This memorandum transmits USAID/Egypt’s response to the draft report on the subject audit,
which included seven recommendations to USAID/Egypt. This submission of USAID/Egypt’s
response is within the time frame agreed upon by the Regional Inspector General/Cairo, by April
26, 2011.

We note that for the majority of the responses, USAID/Egypt has followed, or agreed to follow,
current Agency policy. For those related to the antiterrorism financing provisions and policy,
USAID/Egypt has confirmed the Mission’s understanding and application of current policy and
cleared such responses with the General Counsel’s office, specifically Gary Winter, in
USAID/Washington. Gary Winter was the principle drafter of AAPD 04-14. Insofar as the
recommendations exceed or go beyond that policy, USAID/Egypt has noted such in the
response and requested closure of the recommendation.

USAID/Egypt requests closure of the seven recommendations.

These comments are provided in two formats: a signed hard copy and an electronic version in
Microsoft Word with /s/ signifying my signature.

Thank you for the professionalism and thoroughness of the audit team who worked on this
activity.




                                                                                             15
                                                                                       Appendix II



RIG Draft Audit Response – CHL Program Audit

General Comments: The below comments from the Summary of Results represent a point for
further clarification and an inaccuracy regarding the activity’s implementation.

P 1, Second Paragraph: “Although mission officials expect the program to end in February
2011, closeout activities may take up to a year or more to complete.”
 It is not clear from where the “year or more” time frame comes since this statement was not
   in the original discussion paper. As indicated in written and verbal feedback, the activity
   ended on February 28, 2011 – as is noted in Appendix I. USAID closeout procedures
   generally entail a three month closeout process. Currently, all is on track for the three month
   time frame.

P 2, Second Paragraph: “The implementer did not achieve its goal to reach targets for the
number of children reached by U.S. Government supported nutrition programs because the
implementer shifted the program focus from weighing children for malnutrition to counseling
women on breastfeeding and reproductive health without consulting the mission.”
 This statement does not accurately reflect the situation around the programming shift, nor
   does it accurately reflect the technical intervention. Please see related comments below for
   “P. 10, Second Paragraph” under the General Comments section titled, USAID/Egypt Did
   Not Update Targets With Changes in Activities.

USAID/Egypt Did Not Ensure Compliance With Antiterrorism Financing Requirements

Specific Responses to the Recommendations:

   Recommendation No. 1: We recommend that USAID/Egypt obtain the antiterrorism
    certification required and include the information in the mission’s official program
    files.
    - The Mission concurs. USAID/Egypt has obtained the certification required on April 15,
        2011 and included it in the mission’s official program files.
    - The Mission requests closure of this recommendation.

   Recommendation No. 2: We recommend that USAID/Egypt require the primary
    implementer to verify that secondary implementers and individuals it provided
    material support were not associated with terrorism.
    - The Mission does not concur. USAID/Egypt has obtained the certification required by
       AAPD 04-14 and included it in the mission’s official procurement files. This Certification
       requires the implementing partner to take all reasonable steps to ensure that “it does not
       and will not knowingly provide, material support or resources to any individual or entity
       that commits, attempts to commit, advocates, facilitates, or participates in terrorist acts,
       or has committed, attempted to commit, facilitated, or participated in terrorist acts, as
       that term is defined in paragraph 3” of the Certification included in AAPD 04-14. The
       Certification notes several steps that “may enable the Recipient to comply with its
       obligations” (emphasis added), including verifying that the individual or entity does not
       appear on any of the lists detailed in the Certification, and is not included in any
       additional information concerning prohibited individuals or entities provided to the
       recipient by USAID. It also asks recipients to “consider all information about that




                                                                                                16
                                                                                         Appendix II


        individual or entity of which it is aware and all public information that is reasonably
        available to it or of which it should be aware”.
    -   As noted in more detail below in the “General Comments” section, it is not the intention
        of USAID that the language in the Certification referring to the provision of material
        support and resources would apply to the ultimate beneficiaries of USAID assistance,
        such as recipients of food, medical care, micro-enterprise loans, shelter, etc., unless the
        applicant has reason to believe that one or more of such recipients has engaged or
        engages in terrorist activity, as described in the Certification.
    -   As such, it is not clear what Recommendation No. 2 would require that is not already
        addressed by requiring the Certification as noted in Recommendation #1 above. To the
        extent this recommendation reaches beyond what is included above, it is not clear what
        the legal or regulatory basis is for this requirement.
    -   The Mission requests closure of this recommendation.

   Recommendation No. 3: We recommend that USAID/Egypt provide written guidance
    to the implementer about USAID’s antiterrorism measures, to include requirements
    for certifications and mandatory clauses for the prohibition of terrorist financing.
     The Mission does not concur. USAID/Egypt has obtained the signed Certification
        required by AAPD 04-14 and included it in the Mission’s official procurement files. This
        Certification includes all necessary written guidance, including the process required of
        implementers. USAID policy currently requires implementing partners signing an
        agreement directly with USAID to complete this Certification at the beginning of an
        agreement. The implementing partner is also required by the terms of their agreement
        to include specific clauses on this subject in any sub-agreements or contracts. The
        certification does not require certifications from sub-partners. This certification includes
        information relevant to the implementer regarding USAID’s antiterrorism financing
        measures and implementer responsibilities with respect thereto.
    - As such, it is not clear what Recommendation No. 3 would require that is not already
        addressed in Recommendation #1 above. To the extent this recommendation reaches
        beyond what is included above, it is not clear what the legal or regulatory basis is for this
        requirement. All USAID contractors and grantees are subject to and expected to uphold
        US laws with respect to Antiterrorism Financing Requirements, and to complete the
        necessary due diligence to do so. USAID has determined that the burden for
        determining what is adequate due diligence should be with our implementing partners,
        and not shifted back to the US Government. It is expected that partners will take
        responsibility and comply with the law.
    - The Mission requests closure of this recommendation.

   Recommendation No. 4. We recommend that USAID/Egypt develop a schedule to
    periodically verify that the implementer has taken actions to ensure that antiterrorism
    measures are followed in a timely manner as a part of the mission’s management
    oversight.
    - The Mission does not concur. The AOTR designation letter requires the AOTR to be
       familiar with the grant and its terms. One of the responsibilities that flows from the
       designation letter is an understanding of recipient responsibilities included in the grant.
       In order to facilitate this, the Procurement office will at least annually review with AOTRs
       the information included in AAPD 04-14 to remind them of the content of the policy
       directive and recipient responsibilities included therein. As part of AOTRs’ normal
       oversight responsibilities, AOTRs will be reminded to periodically review with




                                                                                                  17
                                                                                         Appendix II


        implementers their responsibilities under AAPD 04-14 and to remain alert to any
        indication that implementers are not complying with the related certification or directive.
    -   To the extent this recommendation reaches beyond what is included above, it is not
        clear what the legal or regulatory basis is for this requirement. All USAID contractors
        and grantees are subject to and expected to uphold US laws with respect to
        Antiterrorism Financing Requirements, and to complete the necessary due diligence to
        do so. USAID has determined that the burden for determining what is adequate due
        diligence should be with our implementing partners, and not shifted back to the US
        Government. It is expected that partners will take responsibility and comply with the
        law.
    -   The Mission requests closure of this recommendation.

General Comments Regarding Vetting:

   Please define what is meant by “vetting” throughout the text. By law, USAID is not
    authorized to use appropriated funds to implement a worldwide partner vetting system. (See
    2010 Appropriations Act Citation below.) In addition, AAPD 04-14 does not require partners
    to individually vet beneficiaries (see AAPD 04-14 citation below). The text of the draft report
    seems to imply that USAID policy is otherwise. Please clarify.

    2010 Appropriations Act
    - 7034 (o) PARTNER VETTING.—None of the funds appropriated by this Act or any prior
       Act may be used by the Secretary of State or the Administrator of the United States
       Agency for International Development (USAID) to implement a Partner Vetting System
       (PVS): Provided, That notwithstanding the previous sentence, funds appropriated by this
       Act may be used to implement a PVS pilot program, including necessary rulemaking:
       Provided further, That any such PVS pilot program shall apply equally to the programs
       and activities of the Department of State and USAID: Provided further, That the
       Secretary of State and the USAID Administrator shall jointly consult with the Committees
       on Appropriations not later than 90 days after enactment of this Act and prior to the
       implementation of such a PVS pilot program, and such funds shall be subject to the
       regular notification procedures of the Committees on Appropriations.

    AAPD 04-14
    - AAPD 04-14 specifically states that “It is not the intention of USAID that the language in
      the Certification referring to the provision of material support and resources would apply
      to the ultimate beneficiaries of USAID assistance, such as recipients of food, medical
      care, micro-enterprise loans, shelter, etc., unless the applicant has reason to believe that
      one or more of such recipients has engaged or engages in terrorist activity, as described
      in the Certification. Rather, that language applies to prime grantees or cooperating
      agencies and other intermediaries (such as sub-grantees) that receive USAID funds or
      USAID-financed commodities which ultimately are to be furnished to the above-
      described beneficiaries.” It goes on to clarify that “It also is not the intention of USAID
      that the obligations under paragraph 1 of the Certification would apply to the
      procurement of goods and/or services by the applicant that are acquired in the ordinary
      course of business through contract or purchase. For example, an applicant’s
      certification would not be considered to “reach down” to a landlord that leases office
      space to the applicant or to a vendor that sells office supplies to an applicant, unless the
      applicant has reason to believe that such landlord or such vendor has engaged or
      engages in terrorist activity, as described in the Certification.”



                                                                                                  18
                                                                                       Appendix II



   One of the purposes of the certification requirement is to elevate the consciousness of our
    partners with respect to anti-terrorism financing issues. Requiring this certification, and the
    attendant due diligence necessary to properly sign the certification, causes our partners to
    spend time and effort reviewing, monitoring, etc. USAID does not go further than that, i.e.,
    we do not monitor the partner during the life of the program to ensure compliance with the
    certification, because we don’t have the authority, expertise or resources to do so. However,
    the certification does provide USAID with a legal basis to terminate the agreement, seek
    refund or take other action as necessary, if it is discovered that the certification was made
    falsely.

USAID/Egypt Did Not Verify the Accuracy of the Reported Performance Data

Specific responses to the Recommendations:

   Proposed Recommendation No. 5. We recommend that USAID/Egypt develop and
    implement a written data verification checklist for mission staff to use to verify the
    accuracy of information provided by the implementer.
    - Please see emails and related attachments on Data Quality Assessments (DQA).
       Relevant references from email attachments include the Performance Plan Reporting
       (PPR) guidance, the DQA worksheet, which is the checklist used to verify the accuracy
       of information provided by the implementer, and USAID’s Performance Monitoring and
       Evaluation TIPS, Guidelines for Indicator Quality.
    - Per USAID policy, 203.3.5.2 “Data reported to Washington for Government Performance
       and Results Act (GPRA) reporting purposes or for reporting externally on Agency
       performance must have had a data quality assessment at some time within the three
       years before submission.” In accordance with this policy, a DQA (utilizing the attached
       worksheet) is completed every three years for data reported to Washington for annual
       performance reports. This was the case for the data verified by the Regional Inspector
       General/Cairo for CHL. A DQA was completed in 2007, and then again in 2010. (Please
       see attached “Pages from PPR guidance” for reference.)
    - The Mission requests closure of this recommendation.

   Recommendation No. 6. We recommend that USAID/Egypt develop and implement a
    written plan for training assistance recipients about data verification and performance
    monitoring plans.
    - The Mission does not concur. It is assumed when an assistance instrument is
        awarded that capable and well trained awardee staff will implement the awarded
        program. USAID does not usually provide training to awardees on basic implementation
        principles such as data verification and performance monitoring. It is assumed that if an
        award includes Monitoring and Evaluation (M&E) experts in its staffing pattern then
        these experts will be capable of conducting their work without additional training. USAID
        does provide guidance in writing such as the attached Mission Order, DQA guidance,
        the ADS and the TIPS series. The latter are available on the USAID public website.
        Training is provided only when there are major changes in the way USAID does
        business.
    - In many cases the Program Office provides intensive M&E guidance and training to the
        awardees as requested by the COTR or AOTR.
    - Agency funded training was provided to all AOTRs and COTRs on Managing for Results
        and specifically on Monitoring and Evaluation in Cairo in June 2009. The same training



                                                                                                19
                                                                                      Appendix II


        was to be provided again in Cairo in May 2011; however the location was changed due
        to the recent civil unrest.
    -   Since 2006, the OHP M&E specialist works with all new implementing partners to
        develop Performance Monitoring Plans. This allows for clear communication on
        expectations on behalf of the OHP, and ensures consistency in how activities are
        capturing and reporting on performance data. This was done with CHL at the beginning
        of FY2010 to get them on track and address noted weaknesses. However, it was
        towards the end of their activity – so not as helpful as it would have been at the
        beginning.
    -   The Mission requests closure of this recommendation.

General Comments on the Section “USAID/Egypt Did Not Verify the Accuracy of the
Reported Performance Data”:

P 8, Second Bullet: “Number of U.S. Government-assisted service delivery points providing
family planning counseling or services: During FY 2009 and again during FY 2010, Johns
Hopkins reported assisting 15,382 pharmacies that provided family planning counseling or
services. However, the implementer did not disclose in the progress reports that this was an
estimated number of pharmacies based on a calculation base using 30,000 pharmacies as a
multiplier—underreporting its results by as much as 29 percent in FY 2009 and 34 percent in FY
2010. Moreover, Johns Hopkins could not provide the source documentation for the calculation
base and provided third-party source documents to the audit that showed more than 30,000
pharmacies actually existed in Egypt. Appendix IV shows the audit’s verification and the
anomalies associated with the reported data.”
 This statement does not accurately reflect the communication and understanding between
    USAID/Egypt and the implementer. USAID/Egypt was fully aware that the number of
    pharmacies submitted was an estimate based on an agreed upon calculation from the 2009
    Ask Consult Providers Survey.
 This statement does not accurately reflect an understanding of the number of pharmacies
    used for base calculation. The calculation base was understood by USAID/Egypt and
    accurately reflects the reach of program activities through a communication materials
    distribution network. As stated above, “third-party source documents to the audit showed
    that more than 30,000 pharmacies actually exist in Egypt.” While this is true – there are
    more than 30,000 pharmacies in Egypt; USAID/Egypt’s activities don’t reach every
    registered pharmacy with its materials. As such, it is incorrect to use this as a base number.
    Therefore, the conclusion reached regarding the underreporting estimates is inaccurate as
    the bullet currently reads.

USAID/Egypt Did Not Update Targets With Changes in Activities

Specific Responses to the Recommendation:

   Recommendation No. 7. We recommend that USAID/Egypt document a plan to
    conduct the required reviews and updates of targets for program indicators that have
    been developed by the mission’s program office on a recurring basis.
    - The Mission does not concur. The Program Office does not develop program
       indicators. The technical teams develop custom indicators and/or select the relevant
       standard indicators based on the Foreign Assistance Framework, and the Program
       Office reviews and advises the technical teams.




                                                                                               20
                                                                                     Appendix II


   -   USAID/Egypt conducts Mission-wide annual performance reviews during the Fall
       Portfolio Implementation Reviews (PIR) each year. The Program Office sends guidance
       to technical offices on the preparation of the reviews, guidance when DQAs are required,
       and the annual Performance and Plan Report (PPR) which also includes guidance on
       revising indicators and updating targets on an annual basis. (See related emails and/or
       documents titled, “November 2010 PIR Guidance”, “PPR Guidance and Team POC” and
       “Additional PPR Guidance” attachments from Fall 2010.) Program Office backstops meet
       with each technical team to discuss the PIR and PPR guidance each year. Additionally,
       the Program Office sends a separate guidance on conducting DQAs with a sample
       checklist clear description of the DQA requirements. (See previously referenced emails
       on Data Quality Assessments). The Program Office, when requested by the technical
       office, provides the same guidance to contractors. (See the email titled “Data Quality
       Assessment” addressed to Arwa).
   -   Additionally, in January or February of each year the Program Office sends a request to
       the teams asking them to update their performance monitoring plans and update the
       targets. (See email titled “Performance Monitoring Plans” from Amani Selim for last
       year’s example.) The Program Office meets with technical teams to walk them through
       each indicator and discuss the updates. (See the calendar appointment “Updated: PPS
       PMP Review” as an example.)
   -   The Program Office will include in next year’s PIR guidance explicit guidance on
       indicator and performance data review committees leading up to the PIRs and the
       submission of the PPR. These review committees will analyze the indicators and data
       quality submitted for the PIRs and PPRs, and make recommendations for improvement.
       There will be separate review committees for each technical office and be composed of
       Program Office and Technical Office staff. Additional follow up would occur in January
       or February as mentioned above.
   -   The Mission requests closure of this recommendation.

General Comments on the Section “USAID/Egypt Did Not Update Targets With Changes
in Activities”:

P 10, Second Paragraph. During FYs 2009 and 2010, the Communication for Healthy Living
Program changed some of its activities; however, USAID/Egypt did not adjust the targets in
response to the changes in activities. For example, in FY 2009, Johns Hopkins shifted its focus
from weighing children for malnutrition to counseling mothers on breastfeeding and reproductive
health. As a result, Johns Hopkins reached fewer children through U.S. Government-supported
nutrition programs and did not achieve its target in FY 2009 for the indicator number of children
reached by U.S. Government-supported nutrition programs (see Appendix IV). In late FY 2009,
Johns Hopkins scaled up its activities to include two additional focal governorates in Lower
Egypt, in which it weighed children for malnutrition. USAID/Egypt did not adjust the target in
response to the additional activity, which resulted in the implementer exceeding targets by 119
percent in FY 2010 (see Appendix IV).
 This statement does not accurately reflect the situation around the programming shift.
    1. Activity scale-up was requested by USAID/Egypt in Lower Egypt governorates to
        respond to 2008 Egypt Demographic and Health Survey data that showed a dramatic
        increase in childhood stunting.
    2. CHL responded by increasing counseling for mothers on breastfeeding and nutrition in
        two Lower Egypt governorates – and not screening to identify at-risk children for
        intensive interventions. As stated in the SO20 PMP, “Method/Approach of
        Collection/Calculation: CHL /JHU provides nutrition screening for the children in the



                                                                                              21
                                                                                       Appendix II


        age range 6-24 months in the 120 Save the Children Villages. This screening is followed
        by nutrition classes for the mothers of the under-weight children, and then monitoring the
        children. Screening of children and their monitoring are documented and quarterly
        reported by Save the Children to CHL/JHU.” This change of approach was not discussed
        with USAID/Egypt, and thus the additional counseling interventions – while they reached
        more mothers with important nutrition information - affected the integrity of the indicator
        and it could not be counted towards the 2009 target. This meant that the projected target
        was not reached in 2009.
    3. Upon USAID/Egypt knowledge of the change of approach, USAID/Egypt requested that
        CHL reintegrate screening to maintain integrity of the target. CHL responded
        accordingly, which enabled them to reach their 2010 target.
   This statement does not accurately reflect the technical intervention by CHL. The program
    shift “from weighing children for malnutrition to counseling mothers on breastfeeding and
    reproductive health” was to counseling mothers on breastfeeding and nutrition. While
    reproductive health may have been integrated, in actuality JHU’s focus (at the initial stage)
    was to address the increase in chronic malnutrition through breastfeeding and nutrition
    counseling.

P. 10, Last Sentence. “Conversely, the mission staff stated that they expected Johns Hopkins to
set the targets in its progress reports to USAID/Egypt’s Office of Health and Population.”
 While mission staff discussed targets with the implementer, it is not expected that they set
    targets in their progress reports.

P. 11, First Paragraph. “Although Johns Hopkins reported some obstacles and constraints in
meeting one of its targets to the mission’s health officials, neither the health officials nor the
implementer took any action to adjust the targets accordingly. Moreover, despite a USAID/Egypt
Program Office mission order that requires staff to review and modify performance monitoring
plans as necessary during implementation, the Office of Health and Population’s staff did not
update its targets as required by this guidance.”
 The statement as such assumes negligence on behalf of the Office of Health and
    Population, when in fact these matters were discussed at great length both with the Office of
    Health and Population extended team, and during the semi-annual Portfolio Implementation
    Reviews. There were two important factors, 1) technical discussions on the appropriateness
    and frequency of changing targets; and 2) a lack of clarity on when it was permissible to
    make changes. The OHP staff felt it was more accurate to write up descriptions regarding
    target deviations as is permitted in the Performance Plan Report Annual Guidance,
    particularly given that the activity was ending and new targets would be created for new
    activities.

P. 12, Second Paragraph. “USAID/Egypt’s Office of Health and Population is responsible for
reviewing performance information and targets as part of its ongoing project management
responsibilities. As a minimal management control, the office should address the obstacles and
constraints reported by the implementer. With the adjustment of targets, both USAID/Egypt and
Johns Hopkins might have achieved greater successes in the program.”
 It is not clear what is meant by “obstacles and constraints” and how this would have
    achieved “greater success of the program” when the implementer overreached the majority
    of its targets. As required by Performance Plan Report Annual Guidance, all target
    deviations were recorded.




                                                                                                22
                                                                                    Appendix II


General Comments on Appendix IV:

P. 19, Appendix IV. Note “d” states: “The Egyptian Pharmacists Syndicate reported to Johns
Hopkins that 46,811 registered pharmacies existed in Egypt during calendar year 2009 and
50,500 registered pharmacies existed during calendar year 2010. Of these registered
pharmacies, the syndicate reported that 10–15 percent were not functioning.”
 As stated above, it is inaccurate to use the number of registered pharmacies, or even
    functioning pharmacies, as a baseline for estimated projections for the relevant indicator.
    The universe of pharmacies for USAID/Egypt is based upon a materials distribution network
    for 20,000 pharmacies.




                                                                                             23
                                                                                           Appendix III


         Status of Program Activities for FY 2009 and FY 2010
                                                                                          Status of
No.                                      Activity                                         Verified
                                                                                           Activity

                                        FY 2009

      Support Ministry of Health and Population (MOHP; named changed to
      Ministry of Health in 2009) and State Information Service (SIS) for the
1     smooth functioning of a Communication for Healthy Living Executive               Completed
      Steering Committee, representing joint planning and decision making
      between ministries and among health programs
                                                                                       Completed
      Facilitate high-level training of trainers (TOTs) for specialized MOHP staff,    high-level TOT
      focusing on topics such as integrated flipchart counseling, premarital           in FY 08,
2     counseling, communication support to a postpartum intrauterine                   conducted step-
      contraceptive device program, and infection control                              down and TOT
                                                                                       training to local
                                                                                       level in FY 09
      Facilitate MOHP outreach activities in focal governorates, including in-clinic
3                                                                                      Completed
      seminars, public meetings, and local leader meetings
      Facilitate MOHP postpartum home visits for postpartum/neonatal
4     counseling and treatment as well as family planning and family health            Completed
      counseling
      Provide technical support to develop a Media Materials Resource Database
      to collect, archive, and disseminate information on national and the Middle
5                                                                                      Completed
      East and North Africa (MENA) Region health communication media and
      materials
                                                                                       Not completed.
      Assist Government of Egypt sustainability plan for health communication,         Completed for
6     considering institutional, technical, and financial factors                      SIS in FY 2010,
                                                                                       not for the
                                                                                       MOHP
      Assist veteran community development associations (CDAs) to build
7                                                                                      Completed
      capacity of novice CDAs to extend the community health program
      Monitoring & Evaluation: Conduct research in selected villages to inform
8                                                                                      Completed
      program design and establish evaluation and monitoring systems
      Conduct home visits to newlyweds in focus villages to provide family health
9     counseling, client education materials, and client record for first pregnancy    Completed
      follow-up
      Conduct structured antenatal classes for first pregnancies (primiparas) and
      high-risk pregnant women. Assist participants of primipara classes to
10                                                                                     Completed
      attend antenatal visits at local health center for standard diagnosis and
      treatment package
      Facilitate peer counseling sessions for mothers and caregivers on child
      health as well as rehabilitation classes and targeted services for at-risk
11    children suffering from malnutrition (6 months–2 years, for reduction of         Completed
      diarrheal disease; reduction of parasites; and proper immunization,
      nutrition, health and hygiene practices)
      Community health awareness and leadership activities (hand hygiene,
12                                                                                     Completed
      cough etiquette) targeted at youth and schoolchildren



                                                                                                      24
                                                                                       Appendix III


                                                                                      Status of
No.                                     Activity                                      Verified
                                                                                       Activity
      Conduct Arab Women Speak Out (AWSO) TOT sessions with CDAs to
13    recruit local women leaders to become lasting agents of change in the        Completed
      community
      Roll out the community health package to additional focal villages through
14                                                                                 Completed
      CDA-CDA mentoring
                                                                                   Completed
      Use data from the baseline survey, media monitoring, and secondary           through the
15
      analysis; conduct provider survey among pharmacists                          2009 Ask
                                                                                   Consult Survey
      Develop and distribute provider and client health education materials on
16                                                                                 Completed
      topics based on national health priorities
      Develop and distribute point of sale promotional materials to Ask Consult
17                                                                                 Completed
      providers
                                                                                   Completed,
                                                                                   although USAID
      Build sustainability for the Ask Consult health marketing organization,
18                                                                                 believes Ask
      through a consultative process with USAID and project partners
                                                                                   Consult not to
                                                                                   be sustainable
      Develop commercial sector/media partnerships and programs in direct
19    support of Healthy Families, Healthy Communities (e.g., with regional        Completed
      satellite media partners and/or commercial sector companies)

                                        FY 2010

                                                                                   Completed.
      Assist the Ministry of Health (MOH) to establish, as a successor to the
                                                                                   The program
      Executive Steering Committee, a Health Communication Unit (HCU) to
20                                                                                 assisted but the
      conduct strategic planning for health communication and coordination
                                                                                   HCU was not
      among health sectors and ministries
                                                                                   established
      Assist MOH HCU in coordinating multichannel communication campaigns,         Not completed.
21    including advocacy, media, community outreach, and counseling                The HCU was
      interventions to address topic health areas                                  not established
      Assist MOH in developing sustainable capacity to assess its ongoing needs
      for information, education, and communication (IEC) materials; strengthen
      its system and guidelines for the design, production, distribution, and
22                                                                                 Completed
      display of such materials; and strengthen HCU resource mobilization for
      IEC from within the Government of Egypt and through public-private
      partnerships
      Provide technical support for development and use of the Media Materials
23    Resource Database to collect, archive, and disseminate information on        Completed
      national and MENA Region health communication media and materials
      Assist SIS to draw up sustainability plan, including the planning and
24    budgeting for communication activities, and the role of SIS in               Completed
      complementing the MOH
      Roll out the community health package to additional focal villages,
25                                                                                 Completed
      especially in Lower Egypt, through CDA-CDA mentoring
      Develop commercial sector-media partnerships and programs in direct
26    support of Healthy Families, Healthy Communities (e.g., with regional        Completed
      satellite media partners or commercial sector companies)




                                                                                                  25
                                                                                             Appendix III


                                                                                            Status of
 No.                                        Activity                                        Verified
                                                                                             Activity
          Develop and implement integrated marketing communication interventions,
  27      leveraging the private sector, to convey behavior-change messages and           Completed
          create demand for appropriate health products and value-added services
                                                                                          Completed,
          Strengthen the capacity and sustainability of the Ask Consult network to        although USAID
  28      provide improved health information throughout the private sector               believes Ask
          (pharmacists, distributors, manufacturers, and media partners)                  Consult not to
                                                                                          be sustainable
          Facilitate materials development and implementation of special events to
  29                                                                                      Completed
          support premarital/newlywed Mabrouk initiative
          Conduct structured antenatal classes for first pregnancies (primiparas) and
          high-risk pregnant women. Assist participants of primipara classes to
  30                                                                                      Completed
          attend antenatal visits at local health center for standard diagnosis and
          treatment package (e.g., iron/vitamin supplementation).
          Conduct postpartum visits in partnership with MOH nurses and volunteers
  31      to protect maternal and neonatal health, initiate exclusive breastfeeding,      Completed
          and promote timely commencement of family planning
          Facilitate peer counseling sessions for mothers and caregivers (positive
          deviance approach) on child health as well as rehabilitation classes and
  32      targeted services for at-risk children suffering from malnutrition (6 months–   Completed
          2 years, for reduction of diarrheal disease, reduction of parasites, and
          proper immunization, nutrition, health and hygiene practices)
          Conduct AWSO sessions for local women, to orient them to positive health
          practices and to engage them as active agents in assisting community
  33                                                                                      Completed
          members to participate in health activities or to refer community members
          to needed health services
          Train doctors and village women to raise awareness of the harm associated
  34                                                                                      Completed
          with female genital cutting and domestic violence
          Community health awareness and leadership activities for H1N1 (hand
  35                                                                                      Completed
          hygiene, cough etiquette) targeted at youth and school children
          Integrated marketing campaign activities addressing topics in
          communicable and noncommunicable disease (e.g., viral hepatitis, infection
  36                                                                                      Completed
          control, avian and H1N1 influenza, breast cancer, cardiovascular, smoking,
          nutrition, and diabetes)


Abbreviations

The following abbreviations appear in the table:

AWSO            Arab Women Speak Out
CDA             community development association
HCU             Health Communication Unit
IEC             information, education, and communication
MENA            Middle East and North Africa
MOH             Ministry of Health
MOHP            Ministry of Health and Population
SIS             State Information Service
TOT             training of trainers




                                                                                                        26
                                                                                                                                                                     Appendix IV


                                 FY 2009 and FY 2010 Indicators Reported by the Implementer

                                           Strategic Objective 20: Healthier, Planned Families

                                              FY 09                                                                     FY 10
         Indicator              FY 09                                                                   a   FY 10                                                                 a
                                              Actual        Verification      Variation      Achieved                   Actual        Verification     Variation       Achieved
           Name                 Target                                                                      Target
                                             Reported                                                                  Reported

Family Planning/Reproductive Health Indicators
                                                                                                                           18.5
Number of people that have
                                                                                                                         million
seen or heard a specific
                                            28.6 million                          4%                                      (CHL
U.S. Government-                  26                                      b                                  26                          18.5
                                            (Corrected      27.4 million         over-          Yes                    reported a              c           0%              No
supported family planning/       million                                                                    million                     million
                                             by CHL)                           reported                                 conserv-
reproductive health
                                                                                                                          ative
message
                                                                                                                         figure)

Number of                                                                                                                                               30–34%
U.S. Government-assisted                                                      25%–29%        Unable to
                                                       d       20,401-                                                           d      22,009-          under-
service delivery points           N/A         15,382                  e         under-      determine -     15,000      15,382                 e                           Yes
                                                               21,602                                                                   23,304
providing family planning                                                      reported      no target                                                  reported
counseling or services

Maternal and Child Health Indicators

Number of children reached
by U.S. Government-                                                           2% under-                                                                11% over-
                                16,000         10,913          11,091                            No         16,000      21,021          19,008                             Yes
supported nutrition                                                            reported                                                                 reported
programs

Number of people trained in
maternal/newborn health                                                       24% under-                                                               7% under-
                                  350           354              463                            Yes          350          817             876                              Yes
through U.S. Government-                                                       reported                                                                 reported
supported programs

Notes:
a
  If the verified figure is at least 90 percent of the target, the audit considered the indicator to have achieved its results.
b
  Although the audit verified a figure of 27.4 million people, the audit found that the data system that Johns Hopkins used to report this figure was unreliable. The data for FY 2009
changed after Johns Hopkins’ vendor updated the data system approximately 1 year later.
c
  The audit verified the FY 2010 figure in the data system; however, the auditors have concerns that another system update may change the FY 2010 figures that the audit verified.
d
  A basis of 30,000 pharmacies used by the implementer to arrive at this figure was unsupported.
e
  The implementer noted that its distribution partner distributed materials to all pharmacies in Egypt. The Egyptian Pharmacists Syndicate reported to Johns Hopkins that 46,811
registered pharmacies existed in Egypt during calendar year 2009, and 50,500 registered pharmacies existed during calendar year 2010. Of these registered pharmacies, the
syndicate reported that 10–15 percent were not functioning. Considering the available support, the auditors used this figure to calculate the verified figure.




                                                                                                                                                                                      27
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           www.usaid.gov/oig
